                 Taxpayer Assistance Center Employees
               Correctly Answered More Tax Law Questions
                During November and December 2003 Than
                        Compared to One Year Ago

                                     April 2004

                       Reference Number: 2004-40-090




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                          April 2, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                       Final Audit Report - Taxpayer Assistance Center Employees
                                      Correctly Answered More Tax Law Questions During November
                                      and December 2003 Than Compared to One Year Ago
                                      (Audit # 200440029)


       This report presents the results of our review of Internal Revenue Service (IRS)
       responses to taxpayers’ tax law questions. The overall objective of this review was to
       determine if the IRS provides accurate and timely responses to taxpayers’ tax law
       questions. In addition, Treasury Inspector General for Tax Administration (TIGTA)
       auditors that made anonymous visits to the Taxpayer Assistance Centers (TAC)
       assessed whether IRS employees adhered to operating guidelines on referral
       procedures1 and were professional and courteous, and whether TAC addresses and
       office hours made available to taxpayers were accurate.
       This review was conducted as a result of an amendment to the Treasury spending bill2
       for Fiscal Year (FY) 2002 proposed by Senator Byron Dorgan (Democrat -
       North Dakota), then Chairman of the Subcommittee on Treasury and General
       Government. The amendment requires us to conduct visits to all TACs and report to
       the Congress on whether taxpayers are provided correct and prompt answers to their
       questions. We are conducting anonymous visits to all TACs over a 2-year period. This
       is the 12th in a series of bi-monthly reports that we are issuing in response to the
       amendment to the Treasury spending bill.


       1
         Field Assistance office guidelines clearly define the scope of employee expertise (tax law topics for which
       employees receive training) and specific services that are offered to taxpayers within the TACs. Taxpayers that ask
       questions outside the level of employee training should be referred to the IRS toll-free telephone lines or have their
       questions submitted via the Internet (called “R-mail”) for assistance.
       2
         Treasury and General Government Appropriations Act, 2002, Pub. L. No. 107-67, 115 Stat. 514 (2001).
                                                          2

During November and December 2003, TIGTA auditors made 69 anonymous visits to
36 TACs. The auditors asked 138 tax law questions and determined that IRS
employees provided incorrect answers to some of them. For example, IRS employees:3
•   Correctly answered 98 (71 percent) of 138 questions.
•   Incorrectly answered 24 (17 percent) of 138 questions.
•   Referred the auditor to IRS publications and generally advised the auditor to do
    his or her own research to find the answer to 2 (1 percent) of 138 questions.
•   Denied service4 to the auditor for 7 (5 percent) of 138 questions.
•   Correctly offered to prepare a written referral or call the IRS toll-free telephone line5
    for 7 (5 percent) of 138 questions.
We commend the IRS for the corrective actions it has taken in response to our
previously issued semiannual and bi-monthly reports. We believe the increase in
accuracy rates as compared to those in the same period in Calendar Year 2002 can be
directly attributed to these actions. For example, during November and
December 2002, IRS employees correctly answered 54 percent and referred 18 percent
of questions to publications, compared to correctly answering 71 percent and referring
only 1 percent to publications during November and December 2003.
In January 2003, we began assessing whether IRS employees adhered to operating
procedures to refer to the IRS toll-free telephone lines or Internet those taxpayer
questions that were outside the scope of services that employees should have been
trained to answer. In addition to scheduled visits, our auditors completed visits to
five other TACs. The auditors asked 20 “out of scope” questions and determined that
employees did not follow referral procedures for 5 (25 percent) of these questions.
Auditors also observed that improvement had been made in providing accurate
addresses and office hours to taxpayers, IRS employees were professional and
courteous to the TIGTA auditors in 64 (97 percent) of the 666 visits, and wait time for
service was 1 hour or less for 65 (98 percent) of the 66 visits.
This report is to advise IRS management of the results of our review. We do not make
recommendations to the IRS in the bi-monthly reports. However, we will issue a trend
report during FY 2004 that will include appropriate recommendations to help ensure
taxpayers are referred to employees that can provide accurate responses to their tax


3
  Percentages do not total 100 due to rounding.
4
  One auditor asked one question within the scope of services for which the IRS employee did not provide an
answer, offer to prepare a written referral, or refer the auditor to another IRS employee or the toll-free telephone
lines to obtain an answer to the question. Also, when one auditor tried to visit the Lima, Ohio, TAC and two
auditors tried to visit the Lake Havasu, Arizona, TAC, both TACs were closed. Therefore, we counted those seven
questions as service denied, i.e., (1 auditor x 1 question per auditor) + (3 auditors x 2 questions per auditor).
5
  No answer was provided, but in each instance the IRS employee offered to refer the auditor to the IRS toll-free tax
law telephone number to obtain an answer to the question or prepare an electronic or written referral.
6
  Percentage based on 66 instead of 69 visits because 3 TACs were closed when auditors visited them.
                                                          3

law questions. Auditors will continue making visits to the TACs during the 2004 Filing
Season.7
IRS management reviewed the draft report and provided their concurrence with its
contents via email. Since no formal response was required, the IRS has agreed that the
report will be issued without one.
Copies of this report are also being sent to the IRS managers affected by the report
results. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.




7
    The period from January through mid-April when most individual income tax returns are filed.
 Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
       During November and December 2003 Than Compared to One Year Ago




                                             Table of Contents


Background ............................................................................................... Page 1
Taxpayers Received Correct Answers to More Tax Law Questions
When Compared to the Same Period Last Year........................................ Page 3
Taxpayers Received Answers to Some Tax Law Questions
Employees Were Not Trained to Answer................................................... Page 6
Auditors Generally Had Positive Experiences When They Visited
Taxpayer Assistance Centers.................................................................... Page 7
Improvements Were Made to Provide Accurate Taxpayer
Assistance Center Office Hours and Addresses to Taxpayers .................. Page 8
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 11
Appendix II – Major Contributors to This Report........................................ Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – States Visited During November and December 2003 ....... Page 14
Appendix V – Accuracy Rates
January 2002 Through December 2003 .................................................... Page 15
Appendix VI – Accuracy Rates by Month
January 2002 Through December 2003 .................................................... Page 16
Appendix VII – Bi-Monthly Accuracy Rates
Calendar Years 2002 and 2003................................................................. Page 17
  Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
        During November and December 2003 Than Compared to One Year Ago

                               The Senate Committee on Appropriations was deeply
Background
                               concerned about the findings in a Treasury Inspector
                               General for Tax Administration (TIGTA) audit report on the
                               Internal Revenue Service’s (IRS) Taxpayer Assistance
                               Centers (TAC).1 That report showed auditors did not
                               receive accurate or sufficient answers to 73 percent of their
                               tax law questions posed during anonymous visits to the
                               TACs during January and February 2001.
                               Based on the results of our 2001 review, Senator
                               Byron Dorgan (Democrat - North Dakota), then Chairman
                               of the Subcommittee on Treasury and General Government,
                               proposed an amendment to the Treasury spending bill2 for
                               Fiscal Year (FY) 2002. The amendment requires us to
                               conduct visits to all the TACs and report to the Congress as
                               to whether taxpayers are provided correct and prompt
                               answers to their questions. Auditors are conducting
                               anonymous visits to all the TACs over a 2-year period.
                               The IRS Field Assistance (FA) office in the Wage and
                               Investment (W&I) Division has overall responsibility for
                               the TACs. The TACs exist primarily to serve taxpayers that
                               choose to seek help from the IRS in person. IRS employees
                               that work in the TACs provide assistance in interpreting tax
                               laws and regulations, preparing some tax returns, resolving
                               inquiries on taxpayer accounts, and providing various other
                               services designed to minimize the burden on taxpayers in
                               satisfying their tax obligations.
                               There are approximately 400 TACs located throughout the
                               United States (U.S.), including Washington, D.C.
                               According to the IRS, the TACs served approximately
                               8.4 million taxpayers between January and December 2003.3
                               Approximately 1.7 million of these taxpayers visited the
                               TACs for assistance with the tax law.




                               1
                                 Letter Report: The Internal Revenue Service Continues to Give
                               Incorrect Tax Law Information in Taxpayer Assistance Centers
                               (Reference Number 2001-40-077, dated May 2001).
                               2
                                 Treasury and General Government Appropriations Act, 2002,
                               Pub. L. No. 107-67, 115 Stat. 514 (2001).
                               3
                                 We did not validate the accuracy of the statistics provided by the IRS
                               on the number of taxpayers that visited the TACs.
                                                                                                 Page 1
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
      During November and December 2003 Than Compared to One Year Ago

                             In addition to the anonymous visits being performed by
                             TIGTA auditors, the IRS FA Quality Review Staff began
                             visiting the TACs in October 2002 to anonymously ask tax
                             law questions within the scope of services that TAC
                             employees should have been trained to answer. The results
                             of these reviews will provide each employee’s manager
                             specific feedback on the quality of service provided in the
                             TAC. Examples of additional actions taken by the FA
                             office to improve accuracy include:
                                 •   Certifying employee readiness.
                                 •   Requiring Area Offices to take actions to address
                                     employees answering out of scope questions.
                                 •   Conducting weekly monitoring of office hours on its
                                     Internet and Intranet sites to ensure accuracy.
                             The IRS established an accuracy goal of 80 percent for
                             FY 2003. However, the actual accuracy rate was
                             69 percent. The IRS used our Calendar Year (CY) 2002
                             results as baseline figures to measure improvement during
                             FY 2003. (See Appendix V for overall accuracy rates from
                             January 2002 through December 2003 and Appendix VI for
                             accuracy rates by month.)
                             Our questions relate to 21 tax law topics that are within the
                             scope of services that employees should have been trained
                             to answer. The questions were designed to cover a wide
                             range of tax law topics to provide an overall assessment of
                             whether taxpayers are receiving correct answers to questions
                             that an individual taxpayer4 might ask when he or she visits
                             a TAC. In May 2003, auditors changed the scope of the
                             questions or added additional scenarios that are more
                             applicable to the types of questions taxpayers ask
                             subsequent to the filing season.5
                             Beginning in January 2003, we also began evaluating
                             whether employees adhered to operating procedures to refer
                             to the IRS toll-free telephone lines or Internet (R-mail) those
                             taxpayer questions that were outside the scope of services

                             4
                               Individual taxpayers are nonbusiness taxpayers who file
                             U.S. Individual Income Tax Returns (Form 1040, 1040A, or 1040EZ).
                             5
                               The period from January through mid-April when most individual
                             income tax returns are filed.
                                                                                        Page 2
   Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
         During November and December 2003 Than Compared to One Year Ago

                                that employees should have been trained to answer. FA
                                office guidelines clearly define the scope of employee
                                expertise (tax law topics for which employees receive
                                training) and specific services offered within the TACs.
                                Taxpayers that ask questions outside the level of employee
                                training should be referred to the IRS toll-free telephone
                                lines or have their questions submitted via the Internet for
                                assistance.
                                This report is the 12th in a series of bi-monthly reports we
                                are issuing on the results of the visits to the TACs. (See
                                Appendix VII for a comparison of bi-monthly accuracy
                                rates from January 2002 through December 2003.) The
                                review was performed in the IRS Customer Assistance,
                                Relationships, and Education office in the W&I Division
                                during November and December 2003. TIGTA auditors
                                anonymously visited 36 TACs in 8 states. Another
                                five TACs in three states and the District of Columbia were
                                visited as part of our referral assessment. (See Appendix IV
                                for specific states visited.)
                                This review was conducted in accordance with Government
                                Auditing Standards. However, we did not determine the
                                cause and effect for the findings and will make no
                                recommendations in the bi-monthly reports. We will issue a
                                trend report during FY 2004, incorporating the results from
                                our 12 CY 2002 and 2003 bi-monthly reports and the results
                                of our FY 2004 audits, that will include appropriate
                                recommendations to help ensure taxpayers are referred to
                                employees that can provide accurate responses to their tax
                                law questions.
                                Detailed information on our objective, scope, and
                                methodology is presented in Appendix I. Major
                                contributors to the report are listed in Appendix II.
                                During November and December 2003, IRS employees
Taxpayers Received Correct
                                correctly answered 71 percent and referred only 1 percent of
Answers to More Tax Law
                                questions to publications, compared to correctly answering
Questions When Compared to
                                54 percent and referring 18 percent to publications during
the Same Period Last Year
                                November and December 2002. We commend the IRS for
                                the corrective actions it has taken in response to our
                                previous semiannual and bi-monthly reports. We believe
                                the increase in accuracy rates as compared to those in the

                                                                                        Page 3
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
      During November and December 2003 Than Compared to One Year Ago

                             same period in CY 2002 can be directly attributed to these
                             actions.
                             Our auditors made 69 anonymous visits to 36 TACs and
                             asked 138 tax law questions during November and
                             December 2003. The results were as follows:6
                             •      Ninety-eight (71 percent) of the 138 questions were
                                    correctly answered. However, the IRS employees
                                    provided correct answers to 10 of the 98 questions
                                    without asking all of the required questions outlined in
                                    the tax law instructions and publications. For example,
                                    for 2 of the 10 questions, the IRS employees stated that
                                    the auditor’s Social Security income was not taxable.
                                    However, the employees did not ask if the auditor had a
                                    child and how much of the income went to the child. A
                                    taxpayer may receive an incorrect answer if the IRS
                                    employee assumes the taxpayer received all the Social
                                    Security income.
                             •      Twenty-four (17 percent) of the 138 questions were
                                    incorrectly answered. For example, for three questions,
                                    the IRS employees incorrectly advised auditors that they
                                    would have to pay taxes on the interest from their
                                    insurance dividends. The correct answer to the scenario
                                    presented by the auditors was the interest on insurance
                                    dividends left on deposit with an insurance company is
                                    taxable to you in the year it is credited to your account.
                                    However, if you can withdraw it only on the anniversary
                                    date of the policy, the interest is taxable in the year that
                                    date occurs.
                             •      Two (1 percent) of the 138 questions resulted in the
                                    IRS employees referring the auditors to publications and
                                    generally advising the auditors to do their own research
                                    to find the answers to the questions. For example, an
                                    auditor asked if his or her parent had to pay taxes on the
                                    Social Security benefits. The IRS employee did not
                                    provide an answer but referred the auditor to a
                                    publication. The employee told the auditor to fill out the
                                    worksheet.



                             6
                                 Percentages do not total 100 due to rounding.
                                                                                         Page 4
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
      During November and December 2003 Than Compared to One Year Ago

                             •   Seven (5 percent) of the 138 questions resulted in the
                                 auditors being denied service.7 For example, an auditor
                                 wanted to know if Social Security income was taxable.
                                 The IRS employee stated that this could not be answered
                                 without verifying the auditor’s income as recorded on
                                 the IRS’ management information system. The IRS
                                 employee did not ask additional probing questions even
                                 though the auditor stated the amount of the income and
                                 was prepared to answer all the possible questions
                                 outlined in the IRS publications and instructions.
                                 According to IRS guidelines, employees should use
                                 publications and instructions as tools when assisting
                                 taxpayers with tax law questions. By not using available
                                 resources to ask all required questions, IRS employees
                                 in the above examples made assumptions and provided
                                 answers without considering relevant facts to ensure the
                                 answers given were correct.
                             •   Seven (5 percent) of the 138 questions resulted in the
                                 IRS employees correctly offering to refer the auditors to
                                 the IRS toll-free tax law telephone number or prepare an
                                 electronic or written referral.8 For example, an auditor
                                 asked if he and his spouse could claim the gain from the
                                 sale of both of their homes since they married and
                                 purchased a home together. The IRS employee asked
                                 probing questions but stated he or she was not sure
                                 about the answer. Therefore, the IRS employee
                                 correctly offered to call the toll-free tax law telephone
                                 number.
                             Table 1 provides a breakdown of the accuracy of the
                             answers to our questions.

                             7
                               One auditor asked one question within the scope of services for which
                             the IRS employee did not provide an answer, offer to prepare a written
                             referral, or refer the auditor to another IRS employee or the toll-free
                             telephone lines to obtain the answers to the question. Also, when one
                             auditor tried to visit the Lima, Ohio, TAC and two auditors tried to visit
                             the Lake Havasu, Arizona, TAC, both TACs were closed. Therefore,
                             we counted the seven questions as service denied, i.e., (1 auditor x
                             1 question per auditor) + (3 auditors x 2 questions per auditor).
                             8
                               No answer was provided, but in each instance the IRS employee
                             offered to refer the auditor to the IRS toll-free tax law telephone number
                             to obtain an answer to the question or prepare an electronic or written
                             referral.
                                                                                               Page 5
   Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
         During November and December 2003 Than Compared to One Year Ago

                                                                        Table 1: Tax Law Questions
                                                                           (138 questions asked)
                                                                                           Ref.         Correct
                                                                      Correct but          to   Service Toll-Free
                                                              Correct Incomplete Incorrect Pub. Denied Referral
                                     Responses                    88             10             24         2         7        7
                                                          9
                                 Percentages 64%          7%        17%      1%       5%                                     5%
                                Source: Anonymous visits performed by TIGTA auditors.

                                Chart 1 shows a comparison of CY 2002 to CY 2003
                                accuracy rates.
                                    Chart 1: Comparison of November and December 2002 and 2003
                                                   Bi-Monthly Accuracy Rates 10
                                                                          Nov./Dec. 03         Nov./Dec. 02
                                                    100
                                      Percentages




                                                     80       71%
                                                                 54%
                                                     60
                                                     40                   17% 27%            18%
                                                     20                                               5%            5% 1%
                                                                                           1%              0%
                                                      0
                                                             ct




                                                                                                                      l
                                                                             t




                                                                                           b



                                                                                                      ed




                                                                                                                    ra
                                                                           ec



                                                                                        Pu
                                                          re




                                                                                                      i



                                                                                                                  er
                                                                         rr




                                                                                                   en
                                                       or




                                                                                                                ef
                                                                                      to
                                                                         co




                                                                                                  D
                                                      C




                                                                                                               R
                                                                       In




                                                                                   ef




                                                                                                 r.
                                                                                               Se
                                                                                  R




                                                                                      Responses

                                Source: TIGTA reviews conducted during November and
                                December 2002 and 2003.

                                In January 2003, we began our assessment of whether IRS
Taxpayers Received Answers to
                                employees adhered to operating guidelines that require the
Some Tax Law Questions
                                referral of tax law questions outside the scope of services
Employees Were Not Trained to
                                they have been trained to answer. In addition to scheduled
Answer
                                visits in November and December 2003, TIGTA auditors
                                completed visits to five additional TACs. The auditors
                                asked 20 “out of scope” questions and determined that
                                employees did not follow referral procedures in providing
                                answers to 5 (25 percent) of the questions asked.
                                IRS operating guidelines require IRS employees that receive
                                a question beyond their level of training to offer to call the


                                9
                                 Percentages do not total 100 due to rounding.
                                10
                                  The “Correct” rates presented in the chart include “Correct” and
                                “Correct but Incomplete” responses.
                                                                                                                            Page 6
     Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
           During November and December 2003 Than Compared to One Year Ago

                                  correct IRS toll-free telephone line on behalf of the taxpayer
                                  or to submit the question in writing to a subject-matter
                                  expert(s) via the Internet (R-mail).11 Table 2 provides a
                                  breakdown of IRS employees’ answers to tax law questions
                                  beyond their level of training.
                                                     Table 2: Out of Scope Questions
                                                           (20 questions asked)
                                                                         Questions Answered (5)12
                                                   Correctly
                                                   Referred                                     Ref. to
                                                                  Correct         Incorrect
                                                                                                 Pub.
                                       Responses      15             3                2              0
                                   Percentages    75%             60%           40%                 0%
                                  Source: Anonymous visits performed by TIGTA auditors.

                                  Auditors also assessed the quality of assistance provided by
Auditors Generally Had Positive
                                  IRS employees, including whether the employees were
Experiences When They Visited
                                  professional and courteous, the wait time for service, and
Taxpayer Assistance Centers
                                  whether employees’ names were given or visible. Auditors
                                  generally had positive experiences. Table 3 shows a
                                  breakdown of the quality of assistance results.




                                  11
                                     Each question submitted to the IRS R-mail system will be assigned to
                                  a designated employee who will provide an answer to the question
                                  within 15 business days.
                                  12
                                     The IRS employee should have referred the out of scope question to
                                  the toll-free telephone lines or R-mail, but instead the IRS employee
                                  answered the question.
                                                                                                    Page 7
     Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
           During November and December 2003 Than Compared to One Year Ago

                                                      Table 3: Quality of Assistance
                                                   (36 TACs visited, 2 auditors per site)
                                                                           Occurrences      Percentages13
                                   Employee Professional/Courteous              64               97%
                                   Wait Time 0-15 Minutes                       48               73%
                                   Wait Time 16-30 Minutes                      9                14%
                                   Wait Time 31-45 Minutes                      7                11%
                                   Wait Time 46-60 Minutes                      1                2%
                                   Wait Time Greater Than 1 Hour                1                2%
                                   Employee Name Given or Visible           46                   70%
                                  Source: Anonymous visits performed by TIGTA auditors.

                                  TIGTA auditors found that improvements were made to
Improvements Were Made to
                                  ensure TAC addresses and office hours made available to
Provide Accurate Taxpayer
                                  taxpayers matched the information posted at the TACs.
Assistance Center Office Hours
                                  Taxpayers can access the IRS Internet web site and follow
and Addresses to Taxpayers
                                  the appropriate links to obtain the addresses and office hours
                                  of the TACs located in their state. Taxpayers that do not
                                  have access to the Internet may call the IRS toll-free
                                  telephone numbers or automated telephone messaging
                                  system to obtain this information.
                                  In our first semiannual report, we made no
                                  recommendations pertaining to TAC addresses and office
                                  hours because of the IRS’ response to one of our bi-monthly
                                  reports.14 However, while progress was made, we continued
                                  to identify concerns in this area from July through
                                  December 2002. Specifically, 2 percent of TAC addresses
                                  and 43 percent of TAC office hours posted at the TACs did
                                  not match those on the Internet. As a result, our second
                                  semiannual trend report included a recommendation to
                                  ensure TAC addresses and office hours made available to


                                  13
                                     Percentage is based on 66 visits instead of 72 because only 1 auditor
                                  made a visit to the Hobbs, New Mexico; Harlem, New York; and
                                  Lubbock, Texas, TACs. Also, when 1 auditor tried to visit the
                                  Lima, Ohio, TAC and 2 auditors tried to visit the Lake Havasu, Arizona,
                                  TAC, they were closed. (36 TACs x 2 auditors less 6 visits = 66 visits.)
                                  Wait time percentages do not total 100 due to rounding.
                                  14
                                     Management Advisory Report: Taxpayers Continue to Receive
                                  Incorrect Answers to Some Tax Law Questions (Reference
                                  Number 2002-40-113, dated June 2002).
                                                                                                  Page 8
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
      During November and December 2003 Than Compared to One Year Ago

                             taxpayers are accurate. In response, the FA office issued
                             guidance that required managers to certify the accuracy of
                             addresses and office hours on the various systems. The FA
                             office also provided employee training on how to update
                             addresses and office hours and began monitoring to ensure
                             the accuracy of information made available to taxpayers.
                             Beginning in January 2003, we evaluated whether TAC
                             addresses and office hours provided to taxpayers via the
                             Internet, toll-free telephone numbers, and automated
                             telephone messaging system matched the information
                             posted in the TACs. Auditors found the following.
                             Improvement has been made to ensure addresses and
                             office hours made available to taxpayers match the
                             addresses15 and office hours posted at the TACs
                             •    Addresses posted at 29 (88 percent) of 33 TACs
                                  matched the addresses listed on the Internet, toll-free
                                  telephone numbers, and automated telephone messaging
                                  system.
                             •    Office hours for 32 (89 percent) of the 36 TACs with
                                  office hours posted on the Internet and toll-free
                                  telephone numbers matched the hours posted at the
                                  TAC.
                             •    Office hours for 31 (86 percent) of the 36 TACs with
                                  office hours posted on the automated telephone
                                  messaging system matched the hours posted at the TAC.
                             The IRS informed us that the addresses and office hours
                             available to taxpayers from the Internet were the most
                             reliable. As a result, we used these data as a baseline to
                             expand our analysis to determine if addresses and office
                             hours provided to taxpayers from the Internet matched those
                             on the IRS toll-free telephone numbers and automated
                             telephone messaging system.




                             15
                               Percentage based on 33 instead of 36 TACs because the address was
                             not posted at 3 TACs.
                                                                                          Page 9
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
      During November and December 2003 Than Compared to One Year Ago

                             Improvement has been made to ensure addresses and
                             office hours provided to taxpayers that accessed the
                             IRS Internet site matched the information provided by
                             the IRS toll-free telephone numbers and automated
                             telephone messaging system
                             Tables 4 and 5 show the results of our comparison of
                             addresses and office hours made available to taxpayers that
                             access the Internet to the information made available to
                             taxpayers that call the IRS toll-free telephone numbers or
                             automated telephone messaging system.
                                 Table 4: Comparison of Accuracy of Information Provided
                                        via Internet to Toll-Free Telephone Numbers
                                                         Occurrences             Percent
                              Address Correct                36                  100%
                              Office Hours Correct            36                   100%
                             Source: Anonymous visits performed by TIGTA auditors.

                                Table 5: Comparison of Accuracy of Information Provided via
                                     Internet to Automated Telephone Messaging System
                                                         Occurrences             Percent
                              Address Correct                36                   100%
                              Office Hours Correct            35                   97%
                             Source: Anonymous visits performed by TIGTA auditors.




                                                                                      Page 10
      Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
            During November and December 2003 Than Compared to One Year Ago

                                                                                                  Appendix I


                         Detailed Objective, Scope, and Methodology

The overall objective of the review was to determine if the Internal Revenue Service (IRS)
provides accurate and timely responses to taxpayers’ tax law questions. In addition, Treasury
Inspector General for Tax Administration auditors that made anonymous visits to the Taxpayer
Assistance Centers (TAC) assessed whether IRS employees adhered to operating guidelines on
referral procedures and were professional and courteous, and whether the TAC addresses and
office hours made available to taxpayers were accurate. We did not determine the cause and
effect for the findings, so we are making no recommendations in the bi-monthly reports.
To achieve this objective, auditors performed the following tests:
I.        Determined if the IRS provided quality service and accurate responses to tax law
          inquiries at the 36 TACs visited. Auditors asked 138 tax law questions that an individual
          taxpayer1 might ask. Auditors developed questions based on the training provided to IRS
          employees during the fall of 2002 and the scope of services for tax law assistance
          prescribed in the Fiscal Years 2002 and 2003 Field Assistance (FA) Operating
          Procedures.
II.       Determined if IRS employees followed FA Operating Procedures to refer questions that
          were outside the scope of services they should have been trained to answer. In addition
          to scheduled visits, auditors completed visits to 5 additional TACs and asked
          20 questions that were beyond the IRS employees’ level of training.
III.      Determined the quality of service provided by the IRS employees.
IV.       Determined if TAC addresses and office hours provided to taxpayers via the Internet, the
          toll-free telephone numbers, and the (3709) automated telephone messaging system
          matched information posted in the TACs. We determined if TAC addresses and office
          hours provided to taxpayers from the toll-free telephone numbers matched the Internet
          and (3709) automated telephone messaging system.




1
 Individual taxpayers are nonbusiness taxpayers who file United States Individual Income Tax Returns
(Form 1040, 1040A, or 1040EZ).
                                                                                                       Page 11
  Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
        During November and December 2003 Than Compared to One Year Ago

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Randee Cook, Director
Frank Jones, Audit Manager
Russell Martin, Audit Manager
Tanya Boone, Senior Auditor
Deborah Drain, Senior Auditor
Jerome Antoine, Auditor
Robert Baker, Auditor
Jean Bell, Auditor
Jerry Douglas, Auditor
Roberta Fuller, Auditor
Andrea Hayes, Auditor
Kathy Henderson, Auditor
Mary Keyes, Auditor




                                                                                         Page 12
  Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
        During November and December 2003 Than Compared to One Year Ago

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
       GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                    Page 13
  Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
        During November and December 2003 Than Compared to One Year Ago

                                                                                    Appendix IV


                 States Visited During November and December 2003




The eight states visited in which auditors asked questions within the scope of services include
Arizona, New Mexico, New York, Ohio, Oklahoma, Pennsylvania, Texas, and Virginia.
The three states visited in which auditors asked questions outside the scope of services include
Arizona, Pennsylvania, and Virginia. Auditors also visited the District of Columbia.




                                                                                           Page 14
    Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
          During November and December 2003 Than Compared to One Year Ago

                                                                                                Appendix V


                                       Accuracy Rates1
                             January 2002 Through December 2003

During the period January 2002 through December 2003, Treasury Inspector General for Tax
Administration auditors visited 408 Taxpayer Assistance Centers and asked 1,619 tax law
questions. The chart below shows the accuracy rates for those questions.




                              10%            2% 1%




           25%
                                                                                      62%




                                         Correct (62%)
                                         Incorrect (25%)
                                         Referred to Publications (10%)
                                         Service Denied (2%)
                                         Referral (1%)




1
 Correct includes Correct but Incomplete: The correct answer was given, but the Internal Revenue Service (IRS)
employee did not ask all required probing questions.
Referred to Publications: The IRS employee did not answer the question but instead referred the auditor to a
publication and advised the auditor to do his or her own research to find the answer to the question.
                                                                                                       Page 15
     Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
           During November and December 2003 Than Compared to One Year Ago

                                                                                                                                       Appendix VI


                                                  Accuracy Rates by Month
                                             January 2002 Through December 2003




              85                                                                                                                  83                 83
              80                                                                                                   78
              75                                                                       75                                              73                       74
              70                                                                                              69        69
                                        71                                                          67   67
              65                                                               65                                            65                                      69
              60                                  59
                                                                                                                                                          59
              55                                                                                                                            56
Percentages




                             55                            54
              50                                                                             47
                                                                 48
              45
              40                  41                                     40
                      37                                             38
              35        34         35                                                          33                                                         33
              30                                           25          27                                29             28   29
                                                                                                              26                            27                       18
              25     29       24 23                   21                      27                                                                               17
              20                             22                  17                     22                         21
                             20                       20       21                              20 17                              17
              15                                                                                  14                                             8                    7
                                                                11    15                                                               13            3    3     6
              10                                                               8                                                       10            3    2     2     5
                                         7                                                                         2    1    3              8
               5      0                                          4                 3                3    0    5               0             5        3    3
                             1    1       0       0        0                   0         0 0             22         0   3    3         3    4                         1
               0                                                                                              0    0    0         0
                                                                                                                                  0    0                        2
                       0      0   0     0         0        0     0     0       0       0   0        0
                   M 2




                   Se 2




                   M 3




                   Se 3
                   Ju 2




                   D 2




                   Ju 3




                   D 3
                   Fe 2

                   M 2
                           2




                         02


                   A 2


                         02


                   N 2



                           2

                   Fe 3

                   M 3
                           3




                         03


                   A 3


                         03


                   N 3



                           3
                        -0




                        -0




                        -0




                        -0
                        -0




                        -0
                         0




                        -0

                        -0

                        -0

                         0




                        -0

                        -0

                        -0
                         0

                        -0




                       l-0




                         0

                        -0




                       l-0
                n-




                      p-




                      n-




                      p-
                      b-




                      n-




                      b-




                      n-
                    ug




                    ug
                     pr




                     pr
                     ay




                     ay
                     ov




                     ov

                     ec
                     ec
                     ct




                     ct
                     ar




                     ar
                    Ju




                    Ju
              Ja




                   Ja
                   O




                   O
                   A




                   A




                                                                                               Months
                   Correct               Incorrect                         Referred to Publication                      Service Denied                    Referral




                                                                                                                                                 Page 16
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
      During November and December 2003 Than Compared to One Year Ago

                                                                               Appendix VII


                                  Bi-Monthly Accuracy Rates
                                 Calendar Years 2002 and 2003




                                         CY 2002   CY 2003

                     100

                      80                       73%                 72%
                                     72%                     70%           71%
                             68%
                                                       64%
       Percentages




                                   55%     56%
                      60                                                 54%
                           46%                       44%
                      40

                      20

                       0
                                 .




                                                              .




                                                              .
                               e
                                .




                                                              .
                              pr




                                                          ug




                                                           ec
                             eb




                                                           ct
                             un




                                                       ./O
                          ./A




                                                      ./D
                           /F




                                                         A
                          /J


                                                     l./
                        n.




                                                    pt
                       ar



                       ay




                                                   ov
                                                  Ju
                     Ja




                                                 Se
                     M



                     M




                                                 N




                                    Bi-Monthly Reporting Periods




                                                                                     Page 17
